Kathleen Hartnett
T: +1 415 693-2071
khartnett@cooley.com

Via Electronic Filing and
Overnight Mail

July 2, 2021
Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, N.E.
Washington, DC 20543
Re:

iLife Technologies, Inc. v. Nintendo of America, Inc., No. 20-1760

Dear Mr. Harris:
I represent Respondent Nintendo of America, Inc. in the above-captioned
case. Pursuant to Rule 30.4, I am writing to request a 30-day extension of time to
file Respondent’s brief in opposition to certiorari.
The petition for certiorari was docketed on June 14, 2021. The deadline for
Respondent to oppose the petition is July 19, 2021. If the requested extension of
time is granted, Respondent’s brief in opposition would be due on August 18, 2021.
Counsel of record for Petitioner has consented to this request for an extension of
time.
Respondent respectfully requests this extension due to the press of other
matters. Specifically, the team that would be working on the opposition has the
following conflicts:
•

•
•

Reputation.com, Inc. v. Birdeye, Inc., 1:21-cv-00129-LPS-CJB (D. Del.)
o Preliminary injunction expedited discovery ending July 19
o Four depositions between July 5 and 19
o Briefing between July 20 and August 5
o Hearing on August 20
Mock jury exercises the week of July 12
Asetek Danmark A/S v. CoolIT Systems, Inc., No. 3:19-cv-00410-EMC
(N.D Cal.)
o Discovery ending July 29
o Multiple depositions (up to 10 per side) between July 8 and 29
Cooley LLP 3 Embarcadero Center, 20th Floor San Francisco, CA 94111
t: (415) 693-2000 f: (415) 693-2222 cooley.com

Hon. Scott S. Harris
July 2, 2021
Page Two
•
•

Unicorn Energy GmbH v. Tesla, Inc., 2:20-cv-00338 (E.D. Tex.): Claim
Construction briefing in large patent case
Content Square SAS v. Quantum Metric, Inc., 20-832-LPS (D. Del.);
Medallia Inc. v. Content Square SAS, 6:21-cv-00532 (W.D. Tex.):
o Discovery responses due July 7
o Two responses to pleadings due by the end of July

Thank you in advance for your consideration of this matter.
Sincerely,
Cooley LLP
/s/ Kathleen Hartnett
Kathleen Hartnett
cc: Michael C. Wilson, Counsel for Petitioner
(via overnight mail and email) (mwilson@munckwilson.com)
252721821

Cooley LLP 3 Embarcadero Center, 20th Floor San Francisco, CA 94111
t: (415) 693-2000 f: (415) 693-2222 cooley.com

